U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


RANGELANDS IMPROVEMENT PROGRAM,
   BUREAU OF LAND MANAGEMENT

             REPORT NO. 99-l-677
                 JULY 1999
                                                                             C-IN-BLM-OOl-98(A)-D
                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                          Washington, DC. 20240

                                                                      JUL 2 8 I?@


                                     SURVEY REPORT

Memorandum

To:          Director, Bureau of Land Management

From:        Robert J. Williams s&& ~~;+vu
             Assistant Inspector General for Audits

Subject:     Survey Report on the Rangelands Improvement Program, Bureau of Land
             Management (No. 99-I-677)

                                      INTRODUCTION

This report presents the results of our survey of the Bureau of Land Management’s
rangelands improvement program. The objective ofthe survey was to determine whether the
Bureau (1) spent rangelands improvement funds for their intended purposes, (2) reported the
status of rangelands improvement projects accurately, and (3) performed scheduled
inspections of rangelands improvement projects to ensure that the projects were maintained
properly, This is the second of two reports we have issued concerning improvement of
rangeland conditions (see Prior Audit Coverage section).

BACKGROUND

The Bureau is responsible for managing, protecting, and improving 260 million acres of
public lands, including about 166 million acres of rangelands in the western states. The
Bureau’s Rangelands Management Program involves managing ecosystems to ensure their
health, natural diversity, and long-term productivity. Program activities include
administering livestock grazing permits, supporting wildlife habitats, serving wild horse and
burro needs, promoting watershed health, and maintaining and improving the condition of
rangelands to serve a variety of uses and values. The Bureau authorizes about 10 million
animal unit months’ of livestock use annually to about 19,000 operators. These operators
graze about 3.7 million livestock (2 million cattle and 1.7 million sheep) on Bureau lands.
By contrast, there are about 42,000 wild horses and burros on Bureau lands.


‘An animal unit month is the amount of forage needed to feed one cow, one horse, or five sheep for 1 month.
Three Federal statutes govern the administration of rangelands improvement. The Taylor
Grazing Act of 1934 (43 U.S.C. 3 1.5) requires the Bureau to provide for the orderly use,
improvement, and development ofthe range. The Federal Land Policy and Management Act
of 1976 (43 U.S.C. 175 1) authorizes annual appropriations for the purpose ofon-the-ground
range rehabilitation, protection, and improvements on public lands and states that such
rehabilitation, protection, and improvements “shall include all forms of range land
betterment.” The Public Rangelands Improvement Act of 1978 requires the Bureau to
manage, maintain, and improve the condition of the public rangelands so that they become
“as productive as feasible.”

The Bureau’s rangelands improvement policy, as stated in the Bureau Manual Handbook
H- 1740- 1, “Renewable Resource Improvement and Treatment Guidelines and Procedures,”
encourages private parties and other beneficiaries to contribute funds toward improving
rangeland conditions and makes project maintenance the responsibility of benefiting users.

The Bureau, in its budget justification for fiscal year 1998, stated that rangelands
improvement would be directed toward improving the productivity of public rangeland
ecosystems to benefit livestock, fish and wildlife habitat, riparian values, watershed
protection, and other resource values. The Bureau’s budget justification for fiscal year I998
for the rangelands improvement program provided for completing approximately 320 new
projects and treating vegetation on approximately 45,000 acres. The budget for fiscal year
1998 for rangelands improvement was approximately $12.1 million ($9.1 million of fiscal
year 1998 appropriations and $3 million of carryover funds). Funds were obtained primarily
from range permit revenues as prescribed in the Federal Land Policy and Management Act
of 1976 and from carryover funds, which are previous year’s funding that has not been
expended. Annual rangelands improvement appropriations remain available until expended,

Bureau field offices are responsible for tracking the types of rangelands improvement (for
example, soil stabilization, such as seeding and weed control; water management, such as
springs, wells, and pipelines; and facilities, such as cattleguards and fences) in individual
databases maintained on personal computers at each of the offices. Because the Rangelands
Improvement Project System is not integrated,’ the Bureau’s field offices have to send copies
of their databases to the Bureau’s National Applied Resource Science Centelj in Denver,
Colorado, in order for the data to be accumulated and the information to be published in the
“Public Land Statistics.” In addition, the System is programmed to provide each field office
with a list of scheduled cyclical maintenance inspections required for rangelands
improvement projects in their respective areas.



‘“Integrated” is defined as “a collection of distinct elements or components that have been built into one unit.”
(Computer Desktou Encyclopedia, Version 9.4.4th Quarter, 1996)

‘The National Applied Resource Science Center. under the Bureau’s Assistant Director of Renewable
Resources and Planning, is responsible for ecosystem science and technology transfer, information exchange,
and consulting services

                                                        2
SCOPE OF SURVEY
The survey was performed during April through September 1998 at the Bureau’s field offices
in Battle Mountain, Elko, and Winnemucca, Nevada, and at the Bureau’s National Applied
Resource Science Center in Denver. To accomplish the stated objective, we interviewed
Bureau field office and Center personnel and the Bureau’s Budget Officer in Washington,
D.C. We also reviewed the field offices’ project tiles and time and attendance records in
support of rangelands improvement expenditures and the Center’s procedures and controls
related to reporting information on rangelands improvement. Our survey covered
expenditures and program activities that occurred during fiscal years 1996, 1997, and 1998
(through May). Rangelands improvement expenditures were $9.0 million for fiscal year
1996, $7.8 million for fiscal year 1997, and $3.9 million for fiscal year 1998 (through May).
The fiscal year 1998 appropriation was $9.1 million. For the three offices visited,
expenditures for fiscal years 1996 and 1997 and 1998 (through May) were as shown in
Table 1.

            Table 1. Rangeland Improvement Expenditures for Fiscal Years
                         1996,1997, and 1998 (through May)
                                  Fiscal         Fiscal      Fiscal
                                   Year          Year        Year
             Field Office          1996           1997        1998          Totals


         Elko                   $257,495     $374,245      $164,450        $796,190
         Winnemucca              274,702         206,094      72,785         553,581
         Battle Mountain         105,924         289,886      55.775         451,585
           Totals               $638,121 $870.225 $293,010 $1801,356


Our survey was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. As part of our review, we assessed the Bureau’s systems of internal controls
applicable to the rangelands improvement program and found weaknesses related to the lack
of identification of rangelands improvement project numbers on time and attendance and cost
records. These weaknesses are addressed in the Results of Survey section ofthis report. Our
recommendations, if implemented, should improve the internal controls in these areas.

We also reviewed the Departmental Reports on Accountability for fiscal years 1996 and
1997, which include information required by the Federal Managers’ Financial Integrity Act
of 1982, and the Bureau’s annual assurance statement on management controls for fiscal year
1997 to determine whether any reported weaknesses were within the objective and scope of

                                             3
our review. We found that a material weakness was reported by the Bureau relating to
inadequate rangeland monitoring data. To resolve this weakness, the Bureau issued
Instruction Memorandum No. 96- 172, “Implementing Standards of Rangeland Health and
Guidelines for Grazing Management,” dated August 30, 1996, and conducted a workshop
on December 9- 11,1997, regarding the implementation of the new standards and guidelines.

PRIOR AUDIT COVERAGE

The General Accounting Office has not issued any audit reports during the past 5 years on
the Bureau’s rangelands improvement program. However, in April 1993, the General
Accounting Office issued the report “BLM’s [Bureau of Land Management’s] Range
Improvement Project Data Base is Incomplete and Inaccurate” (No. GAO/RCED-93-92).
The report stated that the Bureau’s Rangelands Improvement Project System was incomplete
and inaccurate. Specifically, the System did not contain (1) a comprehensive project
inventory, (2) a complete and accurate accounting of project costs, or (3) a full description
of project benefits. Furthermore, the Bureau did not develop guidance to ensure that all of
the System data were consistently collected, and few individuals in the Bureau were
accountable for the data in the System. The General Accounting Office recommended that
the Secretary of the Interior instruct the Bureau Director to assess the need for the
information that the System database is designed to provide. For information that the Bureau
determines useful, the General Accounting Office recommended that the Director (1) issue
Bureauwide guidance to ensure that the data are consistently collected and entered and (2)
assign accountability for the accuracy and completeness of the data. Conversely, for
information determined to be not useful, the General Accounting Office recommended that
the Director ensure that these data are not entered into the System. During our current
review, we found that the data in the System were still inaccurate and incomplete, as
discussed in the Results of Survey section of this report.

The Office of Inspector General has issued one report during the past 5 years relating to the
improvement ofrangeland conditions. The report, “Resource Advisory Councils, Rangeland
Management Program, Bureau of Land Management” (No. 98-I-646), issued in September
1998, stated that the Resource Advisory Councils worked effectively with the Bureau.
Specifically, the Councils assisted in developing standards and guidelines for rangeland
health, represented and reached consensus among diverse public interest groups, and advised
the Bureau concerning land use decisions. The report on the Councils contained no
recommendations.

                            RESULTS OF SURVEY
The Bureau of Land Management’s Battle Mountain, Elko, and Winnemucca Field Offices
charged costs that were not adequately justified and/or were incorrectly charged to the
rangelands improvement program and did not maintain a complete and accurate database of
its rangelands improvement projects. The Federal Land Policy and Management Act and the
Bureau Manual restrict the expenditure of rangelands improvement program funds to the
direct costs of construction or implementation, inspection, and maintenance of rangelands

                                             4
improvement projects. Additionally, Bureau procedures require that improvements and
treatments on public rangelands be reported and documented through the Rangelands
Improvement Project System to maintain an accurate inventory of rangelands improvement
projects. The costs were not adequately justified because the Bureau charged expenditures
based on budgeted amounts rather than on actual expenditures and did not record program
costs by rangelands improvement project numbers. Also, the Bureau did not provide
adequate guidance to its personnel on inputting data into the System and did not integrate the
System. As a result, as much as $328,700 charged to the rangelands improvement program
was not used for program purposes. Also, the Bureau was unable to readily ascertain the
operational status of its improvements, which therefore hindered its ability to manage,
maintain, and improve the condition of the public rangelands.

Rangelands Improvement Expenditures

The Battle Mountain, Elko, and Winnemucca Field Offices charged expenditures for
personnel that were not adequately justified as program costs. In addition, vehicle usage and
other costs were incorrectly charged to the rangelands improvement program. Specifically,
at the three Nevada field offices visited, we found that. of the rangelands improvement
program funds of about $1,801,400 expended during fiscal years 1996, 1997, and 1998
(through May), rangelands improvement expenditures of about $328,700 either were not
adequately justified ($194,500 for personnel) or were charged incorrectly ($103,300 for
vehicle and $30,900 for other costs) as follows:

        - Personnel costs of $194,500, consisting of $130,200 for employees working on
other activities and $64,300 for administrative employees, were not adequately justified to
support that the employees’ work was applicable to the rangelands improvement program.
Regarding the $130,200 charged for program-related employees, the Battle Mountain and
Elko Field Offices expended rangelands improvement funds of about $98,900 and $3 1,300,
respectively, for payroll costs for range aids, biologists, and equipment operators, even
though activities such as facilities maintenance, fire rehabilitation, and land resources
benefited from their services. For example, the Battle Mountain rangelands improvement
program supervisor told us that of the 42 employees who charged personnel costs of about
$164,200 to rangelands improvement during fiscal years 1996 through 1998, only 6
employees should have charged about $65,300 t? the program; therefore, 36 personnel
inappropriately charged about $98,900 to the program. In addition, administrative personnel
expenditures of about $64,300 incurred during the audit period were charged to the
rangelands improvement program without adequate justification as to how the program
benefited. For example, at the Elko Field Office, administrative labor costs of $11,000 for
an assistant district manager for support services and $15,300 for a warehouse worker were
charged to the program. At the Winnemucca Field Office, administrative labor costs of
$9,700 for an operations chief were charged to the program. These three offices could not
support that these charges benefited the rangelands improvement program.

      - Costs of about $103,300 for General Services Administration and Bureau
automobiles and pickup trucks assigned to other programs were inappropriately charged to

                                              5
the rangelands improvement program. We determined that costs of about $59,100 at the
Elko Office, $30,400 at the Battle Mountain Office, and $13,800 at the Winnemucca Office
should have been charged to other programs.

        - The remaining costs of $30,900 consisted of the following: $15,000 for a forklift
for use in a warehouse, of which a portion may have been chargeable to the Program;
$12,100 for the repair and maintenance of vehicles, n.hich should have been charged to the
Bureau’s Working Capital Fund; and S500 for training and $3,300 for repairs and
maintenance, which are not allowable costs of the rangelands improvement program
according to the Bureau Handbook.

Regarding range betterment funds, the Federal Land Policy and Management Act of 1976
(43 U.S.C. 175 1 (b)( 1)) states:

       Moneys . . . authorized to be appropriated and made available for use in the
       district, region, or national forest from which such moneys were derived, as
       the respective Secretary may direct after consultation with district, regional,
       or national forest user representatives, for the purpose ofon-the-ground range
       rehabilitation, protection, and improvements on such lands, and the
       remaining one-half shall be used for on-the-ground range rehabilitation,
       protection, and improvements as the Secretary concerned directs.

The fund established by the Federal Land Policy and Management Act is called the “Range
Betterment Fund,” and the BureauHandbook H-41 20, “Grazing Management,” describes the
purpose of these funds as follows:

       Range betterment funds may be used for all forms ofrangeland rehabilitation,
       protection, and improvement, including, but not limited to, seeding,
       reseeding, fence construction, weed control, water development, and fish and
       wildlife habitat enhancement. Range betterment funds may be used for
       installing, modifying, and removing improvements. This includes design,
       survey, materials, equipment, labor, and supervision of such projects. Use
       of range betterment funds for other actions or projects is not specifically
       precluded, but such use must be justified to arrest rangeland deterioration
       and/or improve forage conditions for wildlife, watershed protection, or
       livestock production. Range betterment funds must not be used for
       maintenance of improvements after year 1984.

Further, the Bureau Handbook H- 1740- 1 states:

       Bureau employees are responsible for assuring that funds are used consistent
       with existing legislative and appropriation requirements. The Bureau’s
       financial management system (FMS) is based on the benefiting activity
       concept, which requires that program costs be charged directly to the
       benefiting subactivity. . . . Because of this concept, constraints on allowable

                                             6
        uses of certain funds exist, as prescribed by the relevant legislation, policy,
        or other guidance.

According to Handbook H- 1740- 1, rangelands improvement funds cannot be used for land
use planning, project planning, water right filings, easement and right-of-way acquisitions,
contract preparation, maintenance, clerical personnel for general filing and typing, training,
workshops, and general administrative expenses.

Except for expenses related to tire fighting and reimbursable programs, which were charged
based on project numbers, we found that the Bureau charged costs to program funds based
on budget estimates rather than on actual costs. The Bureau’s procedures also did not require
that rangelands improvement expenditures be identified to specific rangelands improvement
projects. Specifically, the three field offices visited did not require rangelands improvement
project numbers to be on time and attendance records or on financial records such as
purchase orders. For example, the Bureau developed its personnel budget by assigning work
months to individuals by activity. Then, in order to meet the Bureau’s budget, individuals
charged their time as allotted in the budget, even though the work they performed did not
benefit the activities charged. Rangelands improvement project numbers were not indicated
on time and attendance records or financial documents because, according to Bureau field
personnel, the automated systems were not implemented to require and accept project
numbers, although the systems were able to accommodate these data.

The Bureau’s methodology of using budgeted work months by activity for funding personnel
and other costs resulted in funds being used for other than intended purposes when the actual
and planned work loads differed and appropriations that should have been charged were not
available to fund the differences. Additionally, the Bureau’s procedure to exclude project
numbers from time and attendance records and cost coding data prevented the tracking of
costs by rangelands improvement projects. Therefore, although the Bureau’s records
indicated that the Bureau had rangelands improvement expenditures of $9.0 million for fiscal
year 1996, $7.8 million for fiscal year 1997, and $3.9 million for fiscal year 1998 (through
May), the Bureau did not provide us data to substantiate that rangelands improvement
projects benefited from these expenditures.

Rangelands Improvement Project System

The Rangelands Improvement Project System was designed to produce inventory data on
rangelands improvement projects and on project maintenance schedules However, we found
that the three Bureau offices reviewed had not maintained a complete and accurate database
of their rangelands improvement projects. This condition was also reported by the General
Accounting Office in its April 1993 report (see Prior Audit Coverage). For example, at the
three offices visited, we found the following:

        - The Wirmemucca Field Office had completed 32 rangelands improvement projects
during fiscal years 1996, 1997, and 1998 (through June 30), at a cost of S692,100, and the
Field Office had input the data into the System; howel.er, the database at the National

                                              7
Applied Resource Science Center, which is used to compile data for the “Public Land
Statistics,” showed only 4 projects, totaling $113,200.

        - We found the same number of rangelands improvement projects (18) in the System
at the Elko Field Office for fiscal years 1996, 1997, and 1998 (through June 30) and at the
Science Center; however, there were 5 projects on each database (total of 10 projects) that
did not match. The Field Office reported total rangelands improvement costs of $209,500
in the System, while the Science Center reported such costs at $176,200, or $33,300 less than
the costs at the Field Office. Additionally, during the same time period that the Field Office
reported $209,500 for rangelands improvements in the System, the Bureau’s accounting
system reported $796,190 in rangelands improvement expenditures for the Field Office.

       - At the Battle Mountain Field Office, we found that neither the database at the
Science Center nor the Field Office listed any projects completed during fiscal years 1996,
1997, and 1998 (through June 30); however, the Field Office had completed 3 rangelands
improvement projects, totaling $15 1,300, during fiscal years 1996 and 1997.

We also found that expenditures detailed in the Bureau’s official accounting system under
rangelands improvement funds could be identified but could not be traced to projects in the
System’s databases. This condition was also reported as a deficiency by the General
Accounting Office in its April 1993 report.

The Bureau needs accurate cost and inventory information for rangelands improvement
projects for reporting purposes and for making effective decisions related to managing the
rangelands. The Bureau is required to manage, maintain, and improve the condition of the
public rangelands in accordance with management objectives and the land use planning
process pursuant to Section 202 of the Federal Land Policy and Management Act. Also, the
Federal Land Policy and Management Act, the Public Rangelands Improvement Act of 1978,
and the Bureau Manual limit rangelands improvement expenditures to specified purposes.
Further, Statement of Federal Financial Accounting Concepts No. 1 states:

       Federal financial reporting should provide information that helps users to
       determine:
                - Costs of specific programs and activities and the composition of,
       and changes in, these costs;
                - Efforts and accomplishments associated with Federal programs and
       their changes over time and in relation to costs; and
                - Efficiency and effectiveness of the Government’s management of
       its assets and liabilities.

We found that the rangelands improvement program databases at the field offices visited
were not complete and accurate because field office personnel had not received adequate
direction and guidance on inputting the data into the System. For example, as a result of
deficiencies in the System reported by the General Accounting Office, the Bureau issued
Instructional Memorandum 95-136 on July 1, 1995, regarding project inventories and

                                              8
accountability for use ofthe funds. The memorandum stated that the Bureau was eliminating
its prior requirement to include project cost data in all System project records. According
to a Bureau official, the Bureau attempted to reconstruct its records but could not complete
this task because of the incompleteness and unreliability of information in the Bureau’s
financial records. Additionally, when rangelands improvement projects were completed, the
required data were usually transcribed to a form for input to the System; however, the data
either were not entered into the field office database timely or were not entered because
project completions and work in process were not required to be reported until the end of that
fiscal year. Also, the System was not integrated, which therefore required that the same data
be input at both the field offices and at the National Applied Resource Science Center. The
Bureau has acknowledged that the System needs to be redesigned as an integrated system
which can be accessed by all the field offices and the National Applied Resource Science
Center, but at the time of our audit, the redesign was only in the early planning stage.

As a result of using incomplete and inaccurate databases on its rangelands improvement
projects, the Bureau’s “Public Land Statistics” has not been completely reliable. Therefore,
we believe that the Bureau’s ability to manage, maintain, and improve the condition of the
public rangelands has been adversely impacted.

Recommendations

We recommend that the Director, Bureau of Land Management:

       1. Ensure that field offices use rangelands improvement program funds only for the
purpose of authorized on-the-ground range rehabilitation, protection, and improvement.

          2. Ensure that the Bureau identifies rangelands improvement costs by project and
justifies charges to rangelands improvement program funds. To accomplish this, the Bureau
could record rangelands improvement project numbers on time and attendance records and
other cost code data.

        3. Issue formal procedures and guidance to all field offices on the proper and timely
recording ofrangelands improvement project information into the Rangelands Improvement
Project System and ensure that all appropriate field personnel are adequately trained in this
area.

        4. Redesign and implement the Rangelands Improvement Project System so that
project data can be input at field locations but accessed by other field offices and by the
National Applied Resource Science Center.

Bureau of Land Management Response and Office of Inspector General
Reply
In the April 26, 1999, response (Appendix 2) to the draft report from the Acting Director,
Bureau of Land Management, through the Acting Assistant Secretary for Land and Minerals

                                              9
Management, the Bureau indicated concurrence with Recommendations 2,3, and 4 but did
not indicate full concurrence with Recommendation 1. Subsequent to the response, Bureau
officials provided us additional information on May 14 and 25, 1999, on the
recommendations. Based on the response and the additional information, we consider all
four recommendations resolved but not implemented. Accordingly, the recommendations
will be forwarded to the Assistant Secretary for Policy, Management and Budget for tracking
of implementation (see Appendix 3).

Regarding Recommendation 1, Bureau officials clarified the Bureau’s response in the
subsequent information provided, stating that the instruction memorandum it planned to
issue to clarify allowable uses for the rangelands improvement funds will also provide
“specific guidance” requiring project numbers to be used to more accurately charge
expenditures to the appropriate program and that this guidance would cause a “significant
decrease” in the number of expenditures charged based on budgeted amounts. Bureau
officials further stated that the instruction memorandum will clarify the use of range
improvement and other funds and direct that all land treatments or projects and associated
costs be entered into the Rangelands Improvement Program System. Bureau officials stated
that the instruction memorandum will be implemented by October 1, 1999, and that the
Assistant Director for Renewable Resources and Planning is responsible for implementation.

Regarding Recommendation 2, Bureau officials said that it planned to implement the
recommendation by September 30, 1999, and that the Assistant Director for Business and
Fiscal Resources is responsible for implementation.

Bureau officials also provided additional information after the initial response for
Recommendations 3 and 4, stating that the Assistant Director for Renewable Resources and
Planning is responsible for these recommendations and that the intensive training program
(Recommendation 3) would be completed by April 30, 2000. In its response, the Bureau
stated that the training program would be completed after the redesign of the Rangelands
Improvement Program System, which is expected to be completed by January 1,200O.

Additional Comments on Report

In its response, the Bureau also provided additional comments on the report. The Bureau’s
comments and our replies are in the paragraphs that follow.

Findings and Results of Survey

        Bureau Comments. The Bureau said that its “first concern” was that the draft report
omitted the quote from the Code of Federal Regulations (43 CFR 4120.3-8(b)) which was
included in the preliminary draft as follows:
       1,
            .funds may be used for activities associated lvith on-the-ground
                .   .


       improvements, including planning, designing, laying out, contracting,


                                            10
        modifying, maintaining when the Bureau is responsible, and monitoring and
        evaluating the effectiveness of specific rangelands improvement projects.”

The Bureau stated, “This section of the regulation is the most current guidance on the
appropriate uses of these funds during the 3-year period under review for this report.” The
Bureau further stated that omitting this sentence from the report “significantly changes the
tone of the subsequent findings.” Additionally, the Bureau stated that the “review should
have been comparing how closely actual use of these funds complied with this regulation”
instead ofattempting to “compare actual expenditures with guidance provided in aHandbook
(H-l 740- l).”

The Bureau also disagreed with the report’s conclusion that the allowable uses ofrangelands
improvement funds under the Federal Land Policy and Management Act and the Bureau
Manual (H-1740-1) were restricted to “‘direct costs of construction.‘” The Bureau stated that
the Federal Land Policy and Management Act states that rangelands improvement funds may
be used ” ‘. . . for the purpose of on-the-ground range rehabilitation, protection, and
improvements. . ..’ ” The Bureau further stated that “FLPMA [Federal Land Policy and
Management Act] does not restrict the use of these funds to ‘direct cost of construction.’ If
it did, 43 CFR 4120.3-8(b) would not be in compliance with the law.” Further, the Bureau
stated that although the December 7, 1987, Handbook states that “‘[i]t is Bureau policy that
RI [rangelands improvement] funds not normally be used for project planning, resource
clearances, etc.,“’ the Secretary of the Interior “changed this Bureau policy by issuing new
regulations under 43 CFR 4120.3-8(b) on February 22, 1995.”

The Bureau further stated that the “change in policy increased the number of employees who
could legitimately charge” to the rangelands improvement program and that this policy was
“in place during the 3-year period under review.”

         Office of Inspector General Reply. We omitted the reference to the Code (43 CFR
4120.3-8(b)) because the questioned costs were attributable to a lack of documentation and
justification that the charges benefited the rangelands improvement program rather than to
the types of costs charged. We concur with the Bureau that costs for on-the-ground
improvements such as specific project planning, designing, laying out, contracting,
modifying, monitoring, and evaluating were proper charges to the rangelands improvement
program. However, the costs must be adequately documented and justified as to the specific
projects benefited. Therefore, the citation from the Code was not applicable as to why the
costs were questioned.

The statement that the Federal Land Policy and Management Act does not restrict the use of
these funds to “direct costs of construction” is correct, and our report does not question the
use of funds for construction. Therefore, we included the entire quotation, which includes
implementation, inspection, and maintenance of rangelands improvement projects. In
addition, in our report (page 6), we included a quote from the Bureau’s Grazing Handbook
that more accurately describes the uses of range betterment funds as established and defined
by the Federal Land Policy and Management Act. Again, our report did not question which

                                             11
employees could charge the rangelands improvements program but that the employees’
charges to the program which we reviewed were not justified as to the benefiting range
improvement projects.

Personnel Costs

         Bureau Comments. The Bureau stated that “the Battle Mountain situation appears
to be accurately described in the report” and that the Battle Mountain Field Office “has
initiated new procedures, guidance and training to ensure that in the future all charges to RI
(8 100) [rangelands improvement] are directly related to specific projects.” However, the
Bureau further stated that the Elko and Winnemucca Field Offices “are a different situation,”
in that the officials involved “were directly responsible for the supervision of the engineering
staffs and Force Account crews” that are directly involved in carrying out the rangelands
improvement program on a daily basis.

         Office of Inspector General Reply. As discussed at the exit conference, we revised
our report to state that the personnel costs were “not adequately justified to support” that the
employees’ work benefited the rangelands improvement program. Again, we emphasize that
the costs were not adequately justified because the Bureau charged expenditures based on
budgeted amounts rather than actual work performed and did not record program costs by
rangelands improvement project numbers. Specifically, at the Elko Field Office, the
Assistant District Manager for Support Services, who is responsible for management
analysis, financial management, information resources management, procurement and
contracting f?unctions, personnel management, fleet management, warehouse management,
range improvement construction and maintenance operations, and facilities construction and
maintenance, stated that the charges to the rangelands improvement funds were based on a
planned annual allocation at the direction of senior-level management. For the Winnemucca
Chief of Operations, whose responsibilities included ensuring that all assigned work for staff
functions and line-management roles related to lands and realty, minerals, cultural resources,
and wilderness is completed, and the Elko warehouse worker who is responsible for all
district warehousing, including fire supplies, property accountability, maintenance of the
building and grounds, vehicle coordination, and project materials and stores accountability,
we could not obtain documentation to justify that the costs for these two positions were
appropriately charged to the rangelands improvement program, and the cost data could not
be reconciled to specific rangelands improvement projects.

Vehicles

        Bureau Comments. The Bureau stated that it would be “interested in knowing how
the auditors determined that the vehicle costs were ‘inappropriately charged to the rangelands
improvement program.“’ The Bureau further stated:

        If the auditors reached a conclusion based on the fact that a particular vehicle
        was not assigned to an equipment operator, then the assumptions are not
        accurate . . . . Rangeland management specialists, biologists, archeologists,

                                               12
        as well as other pertinent specialists, etc., can and should charge their time
        and other expenses to RI (8100) [rangelands improvement] when they are
        working on the project planning process.

        Office of Inspector General Reply. We agree that all costs, except those prohibited
in Bureau Handbook H-4170-1, associated with a range improvement project should be
charged to the rangelands improvement program funds w.hen work is performed on a project,
including specific project planning costs. In reviewing vehicle costs charged to the program,
we identified the vehicles charged to the rangelands improvement funds and the employees
to whom the vehicles were assigned. If the employees had charged time to the program or
were responsible for range improvement activities, we did not take exception to the vehicle
charges. If the employees did not charge time to the program and were not assigned
responsibility for the program, we concluded that the vehicle charges were inappropriately
charged to the program.

Remaining Costs

        Bureau Comments. The Bureau stated that our report “makes reference to, ‘$15,000
for forklift use in a warehouse.“’ The Bureau further stated:

        The forklift is being used in support of the RI (8100) [rangelands
        improvement] program for loading and unloading supplies and equipment at
        the filko Field Office. Fifty percent of the hourly rate and fixed ownership
        rate (FOR) are charged to RI (8100). This would seem to be a totally
        legitimate charge to RI (8 100). The forklift was purchased ($42,432) entirely
        with real property appraisals (9310) money [The account code for the
        Working Capital Fund].

         Office of Inspector General Reply. The Bureau’s supporting documentation that
we obtained from Bureau field offices shows that the $15,000 was charged to rangelands
improvement funds for the purchase of the forklift, not for the hourly rate usage charge or
for the fixed ownership rate. Additionally, the documentation also shows that the amount
charged in total for the forklift was $39,322. We have sent this documentation to the
Bureau’s headquarters. Other programs benefit from the warehouse operations use of the
forklift, such as fire and building maintenance; however, those programs were not charged
a portion of the purchase price of the forklift. The total cost of the forklift should have been
charged to the Working Capital Fund; however, with properjustification, we believe that the
Bureau could charge an equitable portion of any cost exceeding available funding in the
Working Capital Fund to all benefiting programs, not just the rangelands improvement
program. Considering the relatively low number of rangelands improvement project
accomplishments of the field office during the period of our review, we believe that most of
the $15,000 should have been charged to other programs.

       Bureau Comments. Regarding the $12,100 for vehicle repairs and maintenance, the
Bureau stated that “this amounts to an average of $1,50O,‘FO/year” [$1,500 per field office

                                               13
per year] and that “[rlepairs and maintenance outside of regular maintenance are charged to
the benefitting activity.” The Bureau further stated:

        If a vehicle or equipment breaks down while working an RI (8100)
        [rangelands improvement] project, RI (8100) I\-ould be the legitimate code
        in which to charge the repairs. Considering the stress put on equipment
        during project construction, $1,50O/year seems to be very conservative.

         Office of Inspector General Reply. According to the Bureau Manual for the
Working Capital Fund, range improvement funds should not be used for vehicle
maintenance, presumably because vehicle maintenance costs are recovered through the
monthly use rate charged by the Working Capital Fund. The Bureau’s statement that $1,500
per field office per year for vehicle repair is “conservative” does not justify charging
rangelands improvement funds because the Bureau did not identify a specific project number.
Also, we do not know how the Bureau determined that the $7,300 charged by the Elko Office
and the $4,800 charged by the Winnemucca Office (total of $12,100) equate to $1,500 per
field office per year or that the $1,500 is “conservative.” We did determine that the Battle
Mountain Office did not directly charge the rangelands improvement program for vehicle
repairs and maintenance.

       Bureau Comments. The Bureau stated, “The other $3,300 for ‘repairs and
maintenance’ is not clearly described, therefore, we are unable to provide a response. The
same holds true for the $500 for training expenditure.”

        Office of Inspector General Reply. The captions of “repairs and maintenance” and
“training” were the only documentation for these amounts in the Bureau records provided
to us. As previously stated, Bureau Handbook H-4170-l does not permit the use of range
improvement funds for maintenance or training. Under current regulations, the Bureau may
use rangelands improvement funds for maintenance of specific projects; however, during our
review, none of these expenditures were identified to specific projects.

Other Matters

Personnel at the Bureau’s three offices we visited \\-ere not performing all scheduled
inspections for maintenance on rangelands improvement projects, as required by Bureau
Handbook H-1740-1. Bureau management and staff said that staffing was inadequate to
conduct all scheduled rangelands improvement inspections. Although we did not review the
adequacy of the staffing for performing inspections, we did find that scheduled inspection
intervals for similar type projects varied significantly. As a result of not conducting
scheduled inspections, the Bureau had little assurance that projects for these three field
offices were operational.

At the time of our audit, the Winnemucca Field Office had approximately 1,947 rangelands
improvements, the Elko Field Office had 6,062 rangelands improvements, and the Battle
Mountain Field Office had 1,358 rangelands improvements. In accordance with instructions

                                            14
for the Rangelands Improvements Project System, these projects are to be inspected on a
cyclical basis ranging from 1 to 10 years. Our review of rangelands improvement files
disclosed that scheduled inspections were rarely performed. At the Winnemucca Office, we
reviewed five rangelands improvement files for projects that were completed during 1969
through 1996 and found that only 3 of 44 scheduled inspections for the four projects were
performed and documented (with the most recent inspection completed in 1991). At the
Elko Office, we reviewed six rangelands improvement files for projects that were completed
during 195 1 through 1986 and found that only 2 of 162 scheduled inspections had been
performed and documented (with the most recent inspection completed in 1993). At the time
of our visit, Battle Mountain Office personnel stated that inspections of rangelands
improvement projects had not been performed. Subsequent to our site visit, Battle Mountain
Office personnel stated that their office had performed 12 inspections and found that all of
the projects were either not operational or were only partially functioning.

We noted that all project files we reviewed at the Elko Office scheduled projects for annual
inspections. At the Winnemucca Office, we noted that while one fence was scheduled for
annual inspections, another fence was scheduled for inspections every 5 years. We could not
determine fi-om the files the reasons for the differences in inspection periods; however,
Bureau field personnel said that inspection intervals were determined by the field office civil
engineer when each project was designed. However, m-e believe that some inspections may
be required too frequently, such as annually. We suggest that the Bureau instruct field
offices to develop inspection schedules for monitoring range improvement projects that are
frequent enough to detect needed repairs and maintenance in a timely manner and that
existing staff can accomplish.

Bureau of Land Management Response and Office of Inspector General
Reply
In its response (Appendix 2), the Bureau stated that it “recognizes a lack of maintenance
inspection, however, when given all the work that the BLM [Bureau of Land Management]
must do within present personnel constraints, this workload is relatively low in priority.”
The Bureau also stated that our report noted the inconsistency of project inspection
schedules. The response further stated that “[wlhile some inconsistency among like projects
between States could be expected,” the Bureau \vill address the differences in project
schedules within a field office when it revises the Renewable Resource Improvement and
Treatment Handbook.

When revising its Handbook, we encourage the Bureau to consider performing the
inspections to ensure that the projects are operational, since a project that is not operational
cannot provide the benefits for which it was intended.

Since all of the report’s recommendations are considered resolved. no further response to the
Office of Inspector General is required (see Appendix 3).



                                               15
The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings
(Appendix l), actions taken to implement audit recommendations, and identification of each
significant recommendation on which corrective action has not been taken.

We appreciate the assistance of Bureau ofLand Management personnel in the conduct ofour
survey.




                                            16
                                                               APPENDIX 1

             CLASSIFICATION OF MONETARY AMOUNTS

                                                 Funds To Be Put
             Finding Area                         To Better Use

Costs That Were Inadequately Justified or
Inappropriately Charged to Rangelands
Improvement Funds                                   $328,700




                                            17
                                                                                          APPENDIX 2
                                                                                          Page 1 of 6
                           United States Department of the Interior                             -


                                          BURE_\U OF LAND MANAGE~lEST
                                                ‘Washington. D.C. 20211:
                                                   http:;, n-nn-.blm ,gov


                                                      April 26, 1999
                                                                                    In Reply Refer To:
                                                                                    4000 (220)



                                         MEMORANDUM

To:                     Assistant Inspector General for Audits

Through: 14 Sylvia V. Baca &+&._~~-._, & n~~~~                    APR 2-i' EQ
        y Acting Assistant Secretary, Lands and Minerals Management

From:               ;u$Director, Bureau of Land Management                  ina   R. Hatfield
                k
Subject: ’              Response to Draft Survey Report on the Rangelands Improvement (RI)
                        Program, Bureau of Land Management, dated February 1999
                        (C-IN-BLM-00 1-98D)

Thank you for the opportunity to respond to the subject draft audit report. We generally agree
with the findings of the survey and concur that several aspects of the program deserve attention.
However, we believe the Offke of Inspector General (OIG) has inaccurately concluded that there
is inappropriate use of the funding.

Our comments on the assertions are provided below:

SPECIFIC COMMENTS TO FINDINGS AND THE SURVEY

Our first concern with the above-referenced draft report starts on page two. The preliminary
draft survey report included a quote at the end of the full paragraph that is a portion of
43 CFR 4 120.3-8(B).
        “
            . fi_mds may be used for activities associated with on-the-ground improvements,
                .   .


        including planning, designing, laying out, contracting, modifying, maintaining when the
        Bureau is responsible, and monitoring and evaluating the effectiveness of specific
        rangelands improvement projects.”

The sentence above was omitted from the current version of the report and thus significantly
changes the tone of the subsequent findings. This section of the regulation is the most current
guidance on the appropriate uses of these funds during the 3-year period under review for this


                                                         18
                                                                                APPENDIX 2
                                                                                Page 2 of 6
                                                                                     2

report. It would seem that the review should have been comparing how closely actual use of
these funds complied with this regulation. Instead, the report attempted to compare actual
expenditures with guidance provided in a Handbook (H-1740-1) entitled “Renewable Resources
Improvement and Treatment Guidelines and Procedures” released in December 1987. This is
addressed later in our response.

RESULTS OF SURVEY

We do not agree with the OIG’s conclusion on page four regarding the allowable uses of RI
funds (8 100) as follows:

       “The Federal Land Policy and Management Act and Bureau Manual restrict the
       expenditure of rangelands improvement program funds to the direct costs of
       construction or implementation, inspection, and maintenance of rangelands
       improvement projects.”

The Federal Land Policy and Management Act (FLPMA) also addresses the use of RI funds
(8100):
       “
           .for the purpose of on-the-ground range rehabilitation, protection, and
               .


       improvements. . .”

However, the FLPMA does not restrict the use of these funds to “direct cost of construction.” If
it did, 43 CFR 4120.3-8(b) would not be in compliance with the law.

The Handbook 1740-l dated December 7, 1987, states:

       “It is Bureau policy that RI funds not normally be used for project planning, resource
       clearances, etc.”

However, the Secretary changed this Bureau policy by issuing new regulations under
43 CFR 4120.3-8(b) on February 22, 1995. This change in policy increased fhe number of
employees who could legitimately charge to the RI program (8 100). As stated above, this was
the policy in place during the 3-year period under review.

                      Rangelands Improvement Expenditures

1. Personnel costs

The Battle Mountain situation appears lo be accurately described in the report. Workmonths
(WM) were spread to rangeland management specialists, biologists, etc., and time was charged to
8100 as spread. Some of these Wh4’s were legitimately charged for project planning. It would be
impossible to determine exactly how much time was involved for the reasons described in the

                                               19
                                                                                 APPENDIX 2
                                                                                 Page 3 of 6
                                                                                    3

OIG report. The Battle Mountain Field Office has initiated new procedures, guidance and
training to ensure that in the future all charges to RI (8 100) are directly related to specific
projects. The Bureau is also proposing changes later in this response that, when implemented,
wiil aid in assuring that 8 100 charges are properly coded.

The expenditures made by the Elko and Winnemucca Field Offices are a different situation. The
Assistant District Manager (ADM) for Support Services in Elko and the Chief of Operations in
Winnemucca were directly responsible for the supervision of the engineering staffs and Force
Account crews.

The Elko Field Office’s ADM charged approximately $4,1 OO/year or just over one WM to RI
(8100). She was responsible for supervising one engineer, one engineering technician, three
equipment operators and one warehouse worker. All of these positions are directly involved in
carrying out the RI (8100) program on a daily basis.

Winnemucca’s Chief of Operations charged approximately $3,65O/year or one WM to Rl(8100).
He was responsible for supervising one engineer, one engineering technician, and two equipment
operators. He also had the lead responsibility for coordinating the RI (8 100) program for the
District.

In the Elko Warehouse Worker case, approximately $5700/l .5 WM’s was charged to RI (8100).
This individual is responsible for handling and storing all materials which were purchased for use
in the construction of RI (8 100) projects.

2. Vehicles

We would be interested in knowing how the auditors determined that the vehicle costs were
“inappropriately charged to the rangelands improvement program.” If the auditors reached a
conclusion based on the fact that a particular vehicle was not assigned to an equipment operator,
then the assumptions are not accurate. Any number of specialists may be involved in the project
planning process. An important part of this process is the field work associated with project
planning which requires the use of vehicles. Rangeland management specialists, biologists,
archeologists, as well as other pertinent specialists, etc., can and should charge their time and
other expenses to RI (8 100) when they are working on the project planning process.

3. Remaining Costs

The report makes reference to, “$15,000 for forklift use in a warehouse.” The forklift is being
used in support of the RI (8100) program for loading and unloading supplies and equipment at




                                                20
                                                                                 APPENDIX 2
                                                                                 Page 4 of 6
                                                                                   4

the Elko Field Office. Fifty percent of the hourly rate and fixed ownership rate (FOR) are
charged to RI (8 100). This would seem to be a totally legitimate charge to RI (8 100). The
forklift was purchased ($42,432) entirely with real property appraisals (93 10) money.

Regarding $12,100 of vehicle repairs and maintenance, this amounts to an average of
$1 ,SOO/FO/year. Repairs and maintenance outside of regular maintenance are charged to the
benefitting activity. If a vehicle or equipment breaks doun while working an RI (8 100) project,
RI (8100) would be the legitimate code in which to charge the repairs. Considering the stress put
on equipment during project construction, $1.500/year seems to be very conservative.

The other $3,300 for “repairs and maintenance” is not clearly described, therefore, we
are unable to provide a response. The same holds true for the $500 training expenditure.

Page ten of the report described lack of inspections of projects. The BLM recognizes a lack of
maintenance inspection, however, when given all the work that the BLM must do within present
personnel constraints, this workload is relatively low in priority. Inconsistency of project
inspection schedules was also noted in the survey. While some inconsistency among like
projects between States could be expected, the difference within a field office is deserving of
attention. In revising the Renewable Resource Improvement and Treatment Handbook, this facet
of project implementation and reporting will be addressed.

Thank you for assisting us in finding ways to improve this critical program. We look forward to
working with you on resolving the concerns brought out by the report. If you have any
questions, please contact Tom Roberts, Range Conservationist, 202-452-7769 or Gwen Midgette,
BLM Audit Liaison Officer, at 202-452-7739.




Attachment




                                               21
                                                                                 APPENDIX 2
                                                                                 Page 5 of 6


                      RESPONSE TO DRAFT SURVEY REPORT
                       RANGELAND IMPROVEMENT PROGRAM
                         BUREAU OF LAND MANAGEMENT
                                  FEBRUARY 1999
                                (C-IN-BLM-OOl-98D)


Recommendation 1: Ensure that field offices only use rangelands improvement (RI) funds
(8 100) for the purpose of authorized on-the-ground range rehabilitation, protection and
improvement.

Response: As a result of this survey, the BLM has been made aware of an area in the RI
program that needs attention. In most cases it is a lack of documentation of the costs incurred in
the program which fails to demonstrate the appropriate use of the funds. In addition, the findings
indicate a varied interpretation by the BLM field office personnel as to the allowable uses for the
RI funds.

Changes to policy for the use of these RI funds have occurred over the years since the issuance
of the 1987 Renewable Resource Improvement and Treatment Guidelines and Procedures
Handbook. Factors affecting this change include annual appropriations acts and supporting
documentation from the Appropriations Committees’ Reports that provide guidance to the BLM
concerning expenditures for RI’s. Specifically, the Reports of the House Committee on the
Appropriations for the Department of the Interior and Related Agencies since Fiscal Year I993
state, “Receipts are used for construction, purchase, and maintenance of range improvements,
such as seeding, and design of these projects.” Please note that planning and design are included
as legitimate uses of these funds. The change in the 1982 RI policy and the 1987 Handbook, first
surfaced in the 1992 Appropriations House Committee Report and was reflected in Instruction
Memorandum No. 92-95.

The Secretary clarified the policy through regulation when 43 CFR 4 120.3-8(b) was issued on
February 22, 1992, which stated “. . .The funds may be used for activities associated with
on-the-ground improvements including the planning, design, layout, contracting, . .of specific
range improvement projects.” This change in policy increased the number of legitimate charges
to the RI (8100) program, and this policy was in place during the 3-year period under review.
However, apparent confusion with the policy surfaced in this survey. Therefore, direction in the
form of an instruction memorandum will be forthcoming to address this problem and to make it
clear that the more recent regulations supercede any Handbook or Manual Section. Accordingly,
we believe that the Office of the Inspector General (OIG) should compare the actual use of these
funds against the current regulatory requirements.




                                                22
                                                                                APPENDIX 2
                                                                                Page 6 of 6
.    -
                                                                                        2

Recommendation 2: Ensure that the BLM identifies RI (8100) costs by project and justifies
charges to RI (8 100) funds. To accomplish this, we suggest that the BLM record RI project
numbers on time and attendance records and other cost code data.

Response: This recommendation appears to have substantial merit and the feasibility and
compatibility with our financial tracking systems is being explored. Should our systems readily
allow for project numbers, as we suspect they will, the change will be implemented through
appropriate directives and instruction memoranda to the Business Center and the Field. Our
goal, if this system allows, would be to have a policy in place so that implementation could begin
in FY 2000.

Recommendation 3: Issue formal procedures and guidance to all field offices on the proper and
timely recording of RI information into the RIPS program and ensure that all appropriate
personnel are adequately trained in this area.

Response: As noted above, the BLM plans to issue guidance to field offices on the proper use of
RI funds. Included in this guidance will be a strong emphasis of the proper and timely recording
of RI information into the RIPS. This recommendation is very timely in that redesign of the
RIPS system is presently underway (and funded to an amount totaling $380,000). It is expected
that the completion of the redesign will be accomplished by January 1,2000, and that an
intensive training program will follow closely to ensure all appropriate RI projects are fully
documented.

Recommendation 4: Redesign and implement the RI Project System so that project data can be
input at field locations but accessed by the other field offices and by the National Applied
Resource Science Center (NARSC).

Response: This recommendation is and was under discussion within the BLM prior to the
release of the OIG Draft report. Present discussions include the ability to access information
from other field offices, the Washington Office, and the NARSC. Again, this is very timely in
that the redesign of RIPS is being planned, and should be complete by January 1,200O.




                                               23
                                                             APPEhDIX 3


    STATUS OF SURVEY REPORT RECOMIIIENDATIONS

    Finding/
Recommendation
  Reference             Status                 Action Required

 1,2,3, and 4    Resolved; not        No further response to the Office of
                 implemented.         Inspector General is required. The
                                      recommendations will be referred to
                                      the Assistant Secretary for Policy,
                                      Management and Budget for tracking
                                      of implementation.




                                 24
                   ILLEGAL OR WASTEFUL ACTMTIES
                       SHOULD BE REPORTED TO
                  THE OFFICE OF INSPECTOR GENERAL


                               Internet/E-Mail Address

                                       www.oig.doi.gov



                      Within the Continental United States

U .S. Department Of the Interior                          Our 24-hour
off& of Jnspcctor General                                 Telephone HOTLINE
1849 C Street, N.W.                                       l-800-424-508 1 or
Mail Stop 5341                                            (202) 208-5300
Washington, D.C. 20240

                                                         TDD for hearing impaired
                                                         (202) 208-2420 or
                                                         l-800-354-0996


                     Outside the Continental United States

                                      Caribbean Region

U.S. Department of the Interior                          (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                          (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamming, Guam 96911
:
.     Toll Free Numbers:
       l-800-424-5081          m
:
a:.    TDD l-800-354-0996      ;
                               5
:
      FE/Commercial Numbers:
       (202) 208-5300          E
       TDD (202) 208-2420      :



      1849 C Street, N.W.
      Mail Stop 5341
      Washington.
